No. 20-843
IN THE

Supreme Court of the United States
NEW YORK STATE RIFLE & PISTOL ASSOCIATION, INC.,
et al.,
Petitioners,
v.
KEVIN P. BRUEN, In His Official Capacity As
Superintendent Of New York State Police, et al.,
Respondents.

CERTIFICATE OF SERVICE

I hereby certify that I am a member in good standing of the bar of this Court and
that on this 21st day of September, 2021, I caused three copies of the Brief of Members
of the Business Community as Amici Curiae in Support of Respondents to be served by
third-party commercial carrier on the counsel identified below, and caused an electronic
version to be transmitted to the counsel identified below, pursuant to Rule 29.5 of the
Rules of this Court. All parties required to be served have been served.
Paul D. Clement
KIRKLAND & ELLIS LLP
1301 Pennsylvania Avenue, N.W.
Washington, D.C. 20004
(202) 389-5000
paul.clement@kirkland.com

Barbara Dale Underwood
Solicitor General
OFFICE OF THE ATTORNEY GENERAL
28 Liberty Street
New York, N.Y. 10005
(212) 416-8016
barbara.underwood@ag.ny.gov

Counsel for Petitioners
Counsel for Respondents

/s/ Scott A. Edelman
Scott A. Edelman

